No. ___________ (CAPITAL CASE)
IN THE SUPREME COURT OF THE UNITED STATES
October Term 2019

Richard Bays,
Petitioner,
v.
Warden, Chillicothe Correctional Institution
Respondent.

On Application for a Certificate of Appealability
The United States Court of Appeals for the Sixth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

No execution date is presently scheduled.
Deborah L. Williams
Federal Public Defender, by:
Erin G. Barnhart (0079681)
Counsel of Record
Assistant Federal Public Defender
Jacob A. Cairns (0075828)
Co-Counsel
Research and Writing Attorney
Office of the Federal Public Defender for
the Southern District of Ohio, Capital
Habeas Unit
10 West Broad Street, Suite 1020
Columbus, OH 43215-3469
Telephone: (614) 469-2999
Facsimile: (614) 469-5999
erin_barnhart@fd.org
jacob_cairns@fd.org
Counsel for Applicant-Petitioner Bays

